No. 19-251
═════════════════════════════════════════
IN THE
SUPREME COURT OF THE UNITED STATES
___________
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS
THE ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
________
On Petition for a Writ Of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
________________________________________________
Brief Amicus Curiae of American Target
Advertising, Inc. in Support of Petitioner
_______________________

Mark J. Fitzgibbons*
American Target
Advertising, Inc.
9625 Surveyor Ct. #400
Manassas, VA 20110
(703) 392-7676
mfitzgibbons@
americantarget.com

*Counsel of Record
September 25, 2019
_______________________________________________________

i
TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES .................................... iii
INTEREST OF THE AMICUS CURIAE ...................1
SUMMARY OF ARGUMENT.....................................2
ARGUMENT ...............................................................4
I.

RESPONDENT’S DRAGNET SCHEME
VIOLATES THE REQUIREMENT THAT
CHARITABLE SOLICITATION
REGULATION BE NARROWLY
TAILORED…………………………………….… 5

II.

RESPONDENT’S ACTS CREATE AN
UNCONSTITUTIONAL CONDITION ON
OBTAINING A LICENSE TO ENGAGE IN
FIRST AMENDMENT RIGHTS……………....8

III.

RESPONDENT’S ACTS VIOLATE
CONSTITUTIONAL RIGHTS BY
VIOLATING FEDERAL LAW PROTECTING
CONFIDENTIAL TAX RETURN
INFORMATION………………………………..11

IV.

SPECIAL RULES FOR TAX-EXEMPT
ORGANIZATIONS STILL PROTECT
DONOR CONFIDENTIALITY……………….16

ii

CONCLUSION………………………………………….22

iii
TABLE OF AUTHORITIES
U.S. CONSTITUTION
U.S. Const. amend. I ......................................... passim
U.S. Const. amend. XIV……………………………….22
STATUTES AND RULES
26 U.S.C. § 6103…………………………………. passim
26 U.S.C. § 6104 ............................................... passim
26 U.S.C. § 7213 ...........................................12, 15, 20
26 U.S.C. § 7213A………………………………….12, 20
26 U.S.C. § 7431……………………………………12, 20
Cal Code Regs., tit 11, § 301 …………………………..6
CASES

Bantam Books v. Sullivan, 372 U. S. 58 (1963)……..8
Carroll v. Princess Anne, 393 U. S. 175 (1968)………8
Freedman v. Maryland, 380 U. S. 51 (1965)………... 8
Illinois ex rel. Madigan v. Telemarketing
Associates, Inc., 538 U.S. 600 (2003)...……………6
NAACP v. Alabama ex rel. Patterson, 357
U.S. 449 (1958)…..…………………………….passim
NAACP v. Button, 371 U.S. 415 (1963)……………….7
Nebraska Press Assn. v. Stuart, 427 U.S.

539 (1976)…..……………………………………………7
Perry v. Sindermann, 408 U. S. 593 (1972)…..………..9

Regan v. Taxation With Representation
of Wash., 461 U. S. 540 (1983)……………………….9
Riley v. National Federation of the Blind,

487 U.S. 781 (1988)….……………………………6, 7
Schaumburg v. Citizens for Better Environment,
444 U.S. 620 (1980)…………………………………….6
Secretary of State v. Munson, 467 U.S. 947
(1984)…..…………………………………………………6

iv

Speiser v. Randall, 357 U. S. 513 (1958)……………..10
MISCELLANEOUS AUTHORITIES
Disclosure & Privacy Law Reference Guide, IRS
Publication 4639 (Rev. 10-2012), 1-49
https://www.irs.gov/pub/irs-pdf/p4639.pdf (last
visited Sept. 23, 2019)…………………………………15
Internal Revenue Manual (09-22-2015),
“https://www.irs.gov/irm/part7/irm_07-028-002 (last
visited Sept. 18, 2019)………………………………....19

1
INTEREST OF THE AMICUS CURIAE*
American Target Advertising, Inc. has a strong
interest in the matters raised in this litigation because
it is America’s oldest and largest for-profit agency of
its type that provides creative services to nonprofit
organizations that communicate about their
tax-exempt missions and appeal for contributions. It
is itself registered with the California Registry of
Charitable Trusts, and its tax-exempt clients are
harmed by Respondent’s acts.

___________________________________________________
* It is certified that counsel for the parties were timely notified

and have consented to the filing of this brief; that no counsel for a
party authored this brief in whole or in part; and that no person
other than this amicus curiae, its members, or its counsel made a
monetary contribution to its preparation or submission.

2
SUMMARY OF ARGUMENT
Besides its arguments about the appropriate
standard of review in this case, Petitioner Americans
for Prosperity Foundation (“AFPF”) raises numerous
issues that your amicus American Target Advertising,
Inc. (“American Target”) respectfully argues deserve
even more consideration, and which make this case
even more important for certiorari to be granted. Such
issues underlying AFPF’s Petition involve what should
be proper checks on the discretionary, unilateral acts
of the Respondent in the charitable solicitation
licensing process. Here, innocence and valuable First
Amendment rights were already subject to prior
restraint because charities must register with the
California Registry of Charitable Trusts before making
communications that include charitable appeals to
Californians. Because of the unilateral acts of
Respondent, however, this prior restraint now employs
indiscriminate, untargeted, dragnet violations of the
right of private association as a condition to obtain a
license to engage in charitable appeals. Much like
unconstitutional general warrants, these trespasses on
the right of private association are made without
particularized or individualized suspicion and cause,
and are not a narrowly drawn regulation of charitable
solicitations.
Respondent’s actions present a host of violations of,
and greater dangers to, constitutionally and
statutorily protected rights for which Respondent
should be checked and sternly rebuffed by the court.
Respondent’s abuse of a licensing law, using dragnet
collection of confidential donor information from

3
Schedule B to Internal Revenue Service Form 990, also
violates the federal statutory regime protecting
confidential tax return information. Respondent
cleverly but unlawfully evades the statutory and
regulatory requirements for (1) access to, inspection of,
and inter-office disclosure of confidential tax return
information, (2) federal security protocols for those
who are legally provided access to such information
under the Internal Revenue Code, and (3) the
concomitant civil and criminal penalties for violations
of this federal regime protecting confidential federal
tax return information.
Respondent’s violations
involve unauthorized and therefore unlawful access to
the identity of donors to not only AFPF, but other
nonprofit organizations. Many of such organizations
are at the center of controversial or unpopular
political, social, and religious causes and debates, and
donors to such causes may rightly feel threatened by
violations of their right of private association with
those causes. Unchecked, Respondent’s unlawful acts
also create dangerous precedent to expand such
schemes to other licensing requirements even outside
the charitable solicitations arena, which would
severely threaten and weaken the federal statutory
protections of confidential tax return information.
While AFPF’s Petition focuses on First Amendment
issues, Respondent’s acts in violation of the First
Amendment are in fact an unattractive and legally
unhealthy amalgamation of disregard for the rule of
law, and deserve a stern rebuke.

4
ARGUMENT
Petitioner AFPF makes a compelling argument
that the Court needs to resolve important issues
affecting the standard of judicial review applied in this
case. It seems even our courts, not to mention those
who are regulating and regulated, have become
increasingly confused about the various judiciallycreated levels of review that apply when government
actions infringe on First Amendment and other
constitutionally protected rights. That confusion has
led in some cases, such as the present matter, to
courts’ increasingly acceding to government regulatory
power – even, as in this case, where Respondent’s acts
are not expressly directed or authorized by statute -that infringes on protected rights, and even when prior
decisions about the subject matter (state charitable
solicitation laws) require statutes to be narrowly
tailored, also as with the present case. This hedge
towards greater ability of government to infringe on
rights can be or is dangerous for liberty. Respondent’s
acts in this case are inconsistent with other
constitutional doctrines protecting liberty in the
interplay of licensing and constitutionally protected
rights.
AFPF’s Petition identifies throughout how the
Respondent steamrolled over the right of private
association articulated in NAACP v. Alabama.1 In
their dragnet, shotgun violations of the right of private
association, Respondent and his predecessor -- now
United States Senator and presidential candidate
1 357 U.S. 449 (1958).

5
Kamala Harris -- have exceeded and abused their
authority to regulate charitable solicitations in their
capacities as head of the California Registry of
Charitable Trusts. They have done so by requiring
tax-exempt organizations seeking licenses to solicit
contributions in California to, as a precondition of
obtaining such licenses, disclose the identity of donors
named in the confidential Schedule B to Form 990 filed
with the Internal Revenue Service. Petitioner rightly
tells the court, “No California law or regulation
expressly requires charities to file their Schedule Bs
with the California Attorney General” to obtain such
licenses or to annually renew them. Petition 6.
Indeed, irrespective of the source being Schedule B, no
California law requires registrants to disclose their
donors to the Attorney General as a precondition to
obtain licenses to solicit charitable contributions.
Respondent’s acts are ultra vires. Inherently adding to
the intimidating and chilling nature of his
unconstitutional acts is that Respondent’s position as
Attorney General is political, and also gives him the
power to investigate and prosecute in areas and
matters far beyond fraud in the conduct of charitable
solicitations and application of funds for charitable
purposes. Particularly because causes registering with
Respondent may be ideologically critical of, or hostile
to, his own political leanings, policies, and ambitions,
donors rightfully may feel compromised through
exposure of what is private and innocent association.
I.

RESPONDENT’S DRAGNET SCHEME
VIOLATES THE REQUIREMENT THAT
CHARITABLE SOLICITATION
REGULATION BE NARROWLY TAILORED

6
This court has repeatedly affirmed charitable
solicitations are protected by the First Amendment,2
and not just as commercial speech: “[C]haritable
solicitations ‘involve a variety of speech interests . . .
that are within the protection of the First Amendment,
and therefore have not been dealt with as ‘purely
commercial speech.’” Riley v. National Federation of
the Blind, 487 U.S. 781, 789 (1988). Riley is consistent
with prior decisions that rejected regulation of
charitable solicitations that is not “narrowly tailored”
(id. at 798), rejecting the “prophylactic, imprecise, and
unduly burdensome rule the State [had] adopted.” Id.
at 800.
California law requires that charities register
and become licensed with the Registry of Charitable
Trusts within the office of the Attorney General before
-- and as a condition of -- soliciting donations from
Californians. Petition 5, citing Cal Code Regs., tit 11,
§ 301.
Respondent’s dragnet, prophylactic, and
imprecise regulation using demands for the names and
2 Four times since 1980 this Court has needed to rebuff
the over-aggressiveness of state charitable solicitation licensing
laws, or the application of them, to protect the vital First
Amendment interests of charitable speech and publication.
“Regulation of a solicitation must be undertaken with due regard
for the reality that solicitation is characteristically intertwined
with informative and perhaps persuasive speech * * * and for the
reality that, without solicitation, the flow of such information and
advocacy would likely cease.” Riley v. National Federation of the
Blind, 487 U.S. 781, 802 (1988), citing Schaumburg v. Citizens for
Better Environment, 444 U.S. 620, 632 (1980), Secretary of State
v. Munson, 467 U.S. 947, 959 - 960 (1984). See also Illinois ex rel.
Madigan v. Telemarketing Associates, Inc., 538 U.S. 600 (2003).

7
addresses of certain donors to charitable organizations
that register to solicit contributions -- regardless of
innocence or lack thereof -- are by nature and reason
the opposite of narrowly tailored regulation. "Broad
prophylactic rules in the area of free expression are
suspect. Precision of regulation must be the touchstone
in an area so closely touching our most precious
freedoms." Riley, 487 U.S. at 800, citing NAACP v.
Button, 371 U.S. 415, 438 (1963).
Compounding the unlawfulness, such demands
are acts of pure discretion by the Respondent in the
licensing process, since they are not required by
California law, as noted above. Discretion in the
context of licensing where First Amendment rights are
affected is dangerous and may be unconstitutional.
(“At the root of this long line of precedent is the timetested knowledge that in the area of free expression a
licensing statute placing unbridled discretion in the
hands of a government official or agency constitutes a
prior restraint and may result in censorship.”
Lakewood v. Plain Dealer Publishing Co., 486 U.S.
750, 757 (1988); “Only standards limiting the licensor's
discretion will eliminate this danger by adding an
element of certainty fatal to self-censorship.” Id. at
758.) While Petitioner shows no examples of viewpoint
discrimination by Respondent in the licensing process,
First Amendment rights are nevertheless directly
harmed by this discretionary act in California’s prior
restraint licensing process.3 Rights are chilled by
3 “Prior restraints on speech and publication are the most
serious and the least tolerable infringement on First Amendment
rights.” Nebraska Press Assn. v. Stuart, 427 U.S. 539, 559 (1976).
“A system of prior restraint on expression comes to this Court

8
exposure to state officials and employees of private
association with causes that may be ideologically at
odds with the Attorney General and those employees of
his office who have access to Schedule B donor
information.
As AFPF explains, “[a]ctual, potential, and even
perceived donors report that they have been singled
out for audits and investigations by government
officials as a result of their donations (real or
perceived).” Petition 13. One harm, therefore, is
exposure of innocent association in what unfortunately
can be a nasty, duplicitous, ambitious, and sometimes
violent political world. Innocent anonymity and the
right of private association free from the government’s
prying and sometimes politically, religiously, or other
cause-related biased eyes is lost through Respondent’s
acts.
II.

RESPONDENT’S ACTS CREATE AN
UNCONSTITUTIONAL CONDITION ON
OBTAINING A LICENSE TO ENGAGE IN
FIRST AMENDMENT RIGHTS

Besides not being a narrowly tailored
regulation, Respondent’s dragnet demands for donor
information in the charitable solicitation registration
process are an extortionate condition placed on
registrants’ obtaining a “prior restraint” license to
engage in the First Amendment right of soliciting
bearing a heavy presumption against its constitutional validity.”
Carroll v. Princess Anne, 393 U.S. 175, 181 (1968); citing Bantam
Books v. Sullivan, 372 U.S. 58, 70 (1963); Freedman v. Maryland,
380 U.S. 51, 57 (1965).

9
contributions. The court of appeals did not give
adequate consideration to the heavy presumption
against prior restraint as a starting point in its
analysis of Respondent’s acts. Indeed, Respondent’s
unlawful scheme to violate the right of private
association is quite cleverly extortionate, because it is
solicitations by tax-exempt organizations resulting in
donations that initially create the private association
with supporters of the cause. The first precedes the
second. It is a maxim of fundraising that there is only
one way to obtain a donation: ask. Therefore, the
extortionate condition is a chicken-and-egg situation
whereby registrants must forego rights of private
association in order to engage in rights of charitable
solicitation -- or choose not to ask for donations at all.
Respondent therefore violates multiple rights
using the legally coerced, prior restraint need to obtain
a license to solicit donations. It is extortionate because
Respondent knows that without that license, taxexempt organizations may not legally engage in the
First Amendment right to make appeals that are the
genesis of the right of private association being
violated by Respondent. Organizations refusing to
violate the right of private association with their
donors by failing to file Schedule B with Respondent
would be denied licenses to solicit contributions.
Therefore, Respondent’s demands interpose an
unconstitutional condition to obtain such licenses to
engage in constitutionally protected rights. As stated
in Regan v. Taxation With Representation, “[T]he
government may not deny a benefit to a person
because he exercises a constitutional right.” 461 U.S.
540, 545 (1983), citing Perry v. Sindermann, 408 U. S.

10
593 (1972), which had articulated the principle:
[E]ven though a person has no "right" to
a valuable governmental benefit, and
even though the government may deny
him the benefit for any number of
reasons, there are some reasons upon
which the government may not rely. It
may not deny a benefit to a person on a
basis that infringes his constitutionally
protected interest, especially his interest
in freedom of speech. For if the
government could deny a benefit to a
person because of his constitutionally
protected speech or associations, his
exercise of those freedoms would in effect
be penalized and inhibited. This would
allow the government to "produce a result
which [it] could not command directly."
Speiser v. Randall, 357 U. S. 513, 357 U.
S. 526. Such interference with
constitutional rights is impermissible.
The court of appeals seems to have ignored or failed to
give adequate consideration to this extortionate,
unconstitutional condition in ruling against AFPF in
its First Amendment-based challenge.
Making matters worse, Respondent’s violations
of First Amendment rights to solicit donations and the
right of private association extend even to supporters
and tax-exempt organizations outside of the Golden
State merely because the organization seeks a license
to ask for donations from Californians under this prior

11
restraint. This is a nationwide violation of rights by
Respondent. Its prophylactic, national, shotgun reach
harms innocent organizations and donors, and like the
unconstitutional general warrants is not targeted at
miscreants in its trespasses on rights.
Respondent uses discretion in the licensing
process to interpose an unconstitutional condition on
the right of engaging in constitutionally protected
charitable solicitations. Your amicus American Target
argues that this court should grant certiorari to declare
this scheme is neither a narrowly tailored regulation of
charitable solicitation nor an exercise of power
pursuant to a narrowly drawn statute, and therefore is
outside Respondent’s constitutionally acceptable
authority.
III.

RESPONDENT’S ACTS VIOLATE
CONSTITUTIONAL RIGHTS BY
VIOLATING FEDERAL LAW PROTECTING
CONFIDENTIAL TAX RETURN
INFORMATION

Not only is the Respondent’s extortionate
scheme unconstitutional, but Respondent’s purported
law enforcement objectives in obtaining and using
Schedule B donor information may be achieved under
the federal statutory regime that guards the
confidentiality of tax return inform. The federal
regime protects confidential tax return information,
but authorizes the Secretary of the Treasury to make
individualized disclosures to state officials -- as
opposed to the mass, untargeted, extortionate
collection used by Respondent -- for specific law

12
enforcement purposes.
The statutory tax information confidentiality
regime begins with 26 U.S.C. § 6103. The general
theme and core principles of this primary statute
governing the regime are rather explicit and plain:
“Returns and return information shall be confidential .
. . except as authorized by this title.” 26 U.S.C. §
6103(a). The detailed statutory regime that follows
this plain, overarching directive shows that it is ample
and serious in its protection of confidential tax return
information, complete with criminal and civil penalties
for violations, found at 26 U.S.C. §§ 7213, 7213A, and
7431, which are addressed below. Yet this regime is
also designed to provide structured, regulated, and
tightly guarded access to tax return information when
federal and state law enforcement needs, including
inspection, must be fulfilled. Respondent’s acts evade
this statutory regime and its directives for defined,
structured, and controlled access to, and government
examination of, confidential federal tax information.
Because of the unique nature of tax-exempt
organizations, this confidentiality regime includes
some special rules found at 26 U.S.C § 6104 (“Publicity
of information required from certain exempt
organizations and certain trusts”) for the tax
information of tax-exempt organizations filed with the
Internal Revenue Service.
The regime that is initiated at § 6103(a) applies
to “any return or return information obtained by [an
official] in any manner in connection with his service,”
and includes certain information of tax-exempt

13
organizations under § 6104:
[N]o officer or employee of any State, any
local law enforcement agency receiving
information under subsection (i)(1)(C) or
(7)(A),
any
local
child
support
enforcement agency, or any local agency
administering a program listed in
subsection (l)(7)(D) who has or had access
to returns or return information under
this section or section 6104(c) . . . .
26 U.S.C. § 6103(a)(2). As explained in greater detail
below, Schedule B donor information must be deemed
confidential and subject to the confidentiality regime
even under the special rules for greater disclosure of
tax information returns, Form 990, filed with the
Internal Revenue Service by tax-exempt organizations.
Having first established the overarching rule of
confidentiality of tax information filed with the
Internal Revenue Service as the starting point and
general principle, Congress then identifies at § 6103(d)
– (m) the federal and state law enforcement matters
for which the Secretary of the Treasury may disclose to
government officials -- i.e., provide access to -confidential tax information. This federal regime
makes inherent sense because it (1) strictly guards
confidential tax information, yet (2) authorizes state
officials to obtain confidential tax information from the
Internal Revenue Service (the Treasury Secretary’s
designee) when such information is needed for
legitimate law enforcement purposes.

14
In other words, the regime provides for
controlled release to, and access by, government
officials. Under the federal regime protecting the
confidentiality of federal information, state licensing
schemes are not identified as a method by which
confidential tax information may be unilaterally or
otherwise accessed by state officials. And, unless
checked, Respondent’s acts set terrible precedent for
confidential tax information beyond Schedule B in this
regard. At the very least, this absence of federal
authority to use licensing schemes to gather
confidential federal tax information seems to create the
presumption that Congress did not intend to allow
access to Schedule B donor information via state
charitable solicitation licensing laws or discretionary
acts of state officials using the ruse of such licensing
schemes. This presumption would also be consistent
with the constitutionally protected right of private
association articulated in NAACP v. Alabama, and
your amicus respectfully argues certiorari in this case
would help determine that the federal regime should
be read with that constitutional consistency to protect
the rights asserted by AFPF. In other words, the
rights Respondent has violated are also intertwined
with this federal statutory confidentiality regime
protecting Schedule B donor information. This has
consequences for additional statutory remedies that
AFPF and other registrants should be able to seek, and
which Respondent’s scheme otherwise cleverly evades
absent these statutory considerations.
Respondent’s demand that nonprofits file their
Schedule Bs in the licensing process itself creates
unlawful inspection or disclosure.
“The term

15
‘disclosure’ means the making known to any person in
any manner whatever a return or return information.”
§ 6103(b)(8). The prohibition therefore is not merely
on disclosure to the general public. A reading of the
statutory regime shows “any person” certainly must
include officials and employees within state (or federal)
government whose offices are not expressly authorized
to view confidential tax information under the federal
regime. That reading is not only consistent with the
federal statutes, but seems required because the
federal regime expressly applies to state officials and
employees.4 Viewing confidential tax information is
not a government free-for-all. IRS Publication 4639,
for example, interprets legal disclosure for purposes of
whether to assess liability as only that which is
authorized by statute: “For a disclosure of any return
or return information to be authorized by the Code,
there must be an affirmative authorization because
section 6103(a) otherwise prohibits the disclosure of
any return or return information by any person
covered by section 7213(a)(1).” Disclosure & Privacy
Law Reference Guide, Publication 4639 (Rev. 10-2012)
1-49, https://www.irs.gov/pub/irs-pdf/p4639.pdf (last
reviewed Sept. 18, 2019). Respondent’s dragnet
licensing scheme is not an affirmatively authorized
method of viewing confidential tax information.

4 This brief does not address the split in the circuits
about disclosure in certain other circumstances, such as
publication after trial in which confidential tax information was
used at trial, since that split does not address whether licensing
is unauthorized disclosure.

16
IV.

SPECIAL RULES FOR TAX-EXEMPT
ORGANIZATIONS STILL PROTECT DONOR
CONFIDENTIALITY

§ 6104 of Title 26, entitled “Publicity of
information
required
from
certain
exempt
organizations and certain trusts,” provides some
unique rules for tax and tax return information filed
with the IRS by tax-exempt organizations, including
IRS Form 990, and how those Form 990s are made
available for public inspection. § 6104(c) covers
“Publication to State officials,” and paragraph (2)(C)
provides “Procedures for disclosure.” Again, this reenforces that the term “disclosure” in the context of the
federal confidentiality regime means making
confidential tax information available to government
officials, even in the context of their work, and not just
disclosure to the public. The court of appeals’ decision
therefore incorrectly focused merely on disclosure of
this confidential information to the public, such as
through leaks and Internet publication, and AFPF
highlights its concerns about public disclosure in the
Petition’s section “The Demonstrated Pattern of
Confidentiality Violations By California.” Petition 710. But those concerns skip right over one of the
significant purposes of the federal tax information
confidentiality regime, which is to define and limit the
conditions under which even state officials may access
and inspect confidential tax return information.
Under § 6104(c) “Publication to state officials,”
“[i]nformation may be inspected or disclosed” only upon
written request “by an appropriate State officer,” (§
6104(c)(2)(C)) and restricts inspection and inter-office

17
disclosure:
Such information may only be inspected
by or disclosed to a person other than the
appropriate State officer if such person is
an officer or employee of the State and is
designated by the appropriate State
officer to receive the returns or return
information under this paragraph on
behalf of the appropriate State officer.
This provision further justifies the interpretation that
restriction on “disclosure” in this confidentiality regime
not only applies to publication to the general public,
but is a restriction on access by state officials and
employees. The court of appeals’ focus on publication
to the general public, and not on access by Respondent
and his employees -- or other state employees -therefore would allow Respondent to evade the law,
i.e., his obligations to comply with the federal tax
information confidentiality regime. § 6104(c)(2)(D)
also provides:
The Secretary may make available for
inspection or disclose returns and return
information of an organization to which
paragraph (1) applies to an appropriate
State officer of any State if the Secretary
determines that such returns or return
information may constitute evidence of
noncompliance under the laws within the
jurisdiction of the appropriate State
officer.

18
Not only has the Secretary not authorized collection of
Schedule Bs via licensing, but the statute indicates the
Secretary’s purview to disclose tax information to state
officials when it may constitute “evidence of
noncompliance.” The dragnet, prophylactic method
employed by Respondent targeting innocently
exercised rights -- and only incidentally capturing any
guilt -- is inconsistent with lawful methods by which
Respondent may access Schedule Bs for law
enforcement purposes. This further demonstrates that
Respondent’s untargeted, general warrant-like
collection of Schedule Bs is unlawful under the
confidentiality statutes in addition to being
unconstitutional.
While IRS Form 990s are required to be
available to the public under the unique rules of §
6104(d), “Public inspection of certain annual returns,
reports, applications for exemption, and notices of
status,” the donor information filed on Schedule B is
not available to the public under the express language
of § 6104(d)(3), “Nondisclosure of contributors, etc.,”
which states in relevant part:
In the case of an organization which is
not a private foundation (within the
meaning of section 509(a)) or a political
organization exempt from taxation under
section 527, paragraph (1) shall not
require the disclosure of the name or
address of any contributor to the
organization.
§ 6104(d)(3)(A).

Schedule B donor information

19
therefore remains confidential tax return information
under the overarching rule of confidentiality, and
restricted by that regime in how it may be accessed,
despite all the hopping around through the statutory
regime one must follow to reach that very simple,
certain, pragmatic, and constitutionally sound
conclusion. That this regime may be less convenient
for Respondent is irrelevant to the protection of
confidential tax information; in fact it is a feature, not
a bug.
The federal regime’s protocols protecting
confidential tax return information when and after the
IRS lawfully provides it to state officials are rigid, and
guard against misuse. Those state officials to whom
the IRS discloses confidential tax information are
obligated to sign “Disclosure Agreements” agreeing to
strict security arrangements and even audits to ensure
compliance. See Internal Revenue Manual 7.28.2.2
(09-22-2015),
“Disclosure
Agreements,”
https://www.irs.gov/irm/part7/irm_07-028-002 (last
visitef Sept. 18, 2019), which states, “[T]he IRS will
only make disclosures under IRC 6104(c) to those state
agencies that have submitted their Safeguard Security
Report (SSR) to [the IRS office of Privacy,
Governmental Liaison, and Disclosure] and have
entered into a disclosure agreement with the IRS
regarding IRC 6104(c).” Respondent’s scheme not only
violates the statutory and constitutional safeguards
pertaining to access, but evades the federal oversight,
compliance, and security protocols for federal tax
return information.
“Disclosure,” therefore, is not merely disclosure

20
to the public or disclosure by the IRS, but internal
disclosure by state government agencies to employees
not authorized to possess the information. Respondent
has thus boldly and flagrantly transgressed the federal
statutory regime that expressly provides the terms,
circumstances, and conditions under which
confidential tax return information may be accessed
and used in state law enforcement matters, and which
guard against unauthorized disclosure and inspection
of such confidential tax return information.
This federal regime includes criminal and civil
penalties for state officials and employees, which
Respondent’s actions seem designed to allow the
Registry of Charitable Trusts to evade by hopscotching
over the federal laws and protocols zealously protecting
confidential tax information. The criminal and civil
penalties for unauthorized disclosure or inspection of
confidential tax information are found at 26 U.S.C. §
7213 (“Unauthorized disclosure of information,” which
makes willful violations a “felony punishable upon
conviction by a fine in any amount not exceeding
$5,000, or imprisonment of not more than 5 years, or
both”), § 7213A (“Unauthorized inspection of returns or
return information,” making violations “punishable
upon conviction by a fine in any amount not exceeding
$1,000, or imprisonment of not more than 1 year, or
both”), and § 7431 (“Civil damages for unauthorized
inspection or disclosure of returns and return
information” providing the greater of actual damages
or “$1,000 for each act of unauthorized inspection or
disclosure of a return or return information”). These
statutory penalties further evidence the serious
congressional purpose of protecting confidential federal

21
tax information.
It seems quite contrary to the existential
purposes of the federal statutory regime protecting
confidential federal tax information filed with the
federal tax service if it were to be construed to allow
states or state officials acting unilaterally to evade its
strict protocols and concomitant penalties through
dragnet licensing schemes like the one employed by
Respondent. The federal regime is clear that it applies
to, and restricts access by, state officials and
employees. Such access is a danger in and of itself,
especially with regard to sensitive federal tax
information such as Schedule B donor names and
addresses. But especially in the age of the Internet,
Registry of Charitable Trust employees could widely
leak such confidential federal tax information with less
or no fear of the federal civil or criminal penalties that
apply under the regime. Respondent’s actions, unless
rebuked, encourage every state to now follow his bad
example, opening floodgates to evade the strict
protocols and security measures that (1) only legally
authorized state officials with genuine law
enforcement needs may be granted access to such
private information, (2) such information is not abused
for political or discriminatory purposes, (3) such
information is not leaked through back channels to the
media or widely disclosed on the Internet to the public,
and (4) state officials and employees do not evade the
federal civil and criminal penalties in this federal
regime. To combine metaphors, unless checked,
Respondent’s acts make the federal regime a toothless
paper tiger with regard to confidential federal tax
information.

22
This federal regime, if it were properly applied
to the California Attorney General’s dragnet gathering
the Schedule B donor information at issue in this case,
is consistent with this Court’s rebuke of Alabama
Attorney General Patterson in NAACP v. Alabama.
Certiorari should be granted because Schedule B donor
information in the federal regime should be accorded
the constitutional protections of the right of private
association.
CONCLUSION
Certiorari should be granted because
violations of constitutional rights by Respondent are
many and dangerous to liberty and the rule of law
over government officials, and need to be rebuked.
Respondent’s dragnet collection of donor information
under the ruse and color of a state licensing law
merits review by this court. Respondent’s exercise of
power is not expressly authorized by California’s
charitable solicitation law, which law is already a
prior restraint on the First Amendment right to
engage in charitable solicitation, and comes with a
heavy burden on the Respondent to justify the
constitutionality of his acts. Respondent’s acts are
not narrowly tailored regulation affecting the
important First Amendment rights inherent in
charitable solicitations, and should be deemed
constitutionally unacceptable. His office’s annual
coerced, extortionate collections of individuals’ donor
information are mass, untargeted “trespasses upon
fundamental freedoms protected by the Due Process
Clause of the Fourteenth Amendment” (NAACP v.

23

Alabama, 357 U.S. at 460), and violate the right of

private association. Respondent’s acts create an
unconstitutional condition, making registrants trade
off First Amendment rights against rights of private
association. Respondent’s acts in violation of these
rights also are rogue violations of federal law
expressly governing access to, disclosure of,
examination of, and federally required security of
confidential federal tax return information by state
officials and employees. Respondent is in fact
evading criminal and civil penalties of this federal
regime protecting federal tax return information
filed with the federal service by virtue of his
unlawfully possessing and examining Schedule B
donor information. This creates terrible precedent
for misuse and abuse of confidential federal tax
return information by state officials and employees,
and quite frankly is creepy. These reasons make
AFPF’s case all the more important for this Court to
accept.
Respectfully submitted,
MARK J. FITZGIBBONS*
AMERICAN TARGET
ADVERTISING, INC.
9625 Surveyor Ct. #400
Manassas, VA 20110
(703) 392-7676
mfitzgibbons@americantarget.com
*Counsel of Record

